      Department of Homeland Security





      Transportation Security Administration’s Screening 

                     Partnership Program 





OIG-13-99                                           June 2013

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                       JUNE 20 2013


MEMORANDUM FOR: 	            John W. Halinski
                             Deputy Administrator
                             Transportation Security Administration

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT: 	                   Transportation Security Administration’s Screening Partnership
                             Program

Attached for your action is our final report, Transportation Security Administration’s
Screening Partnership Program. We incorporated the formal comments from your office in
the final report.

The report contains two recommendations aimed at improving the Screening Partnership
Program. Your office concurred with both recommendations. Based on information
provided in your response to the draft report, we consider recommendation 1 closed and
recommendation 2 resolved and open. Once your office has fully implemented
recommendation 2, please submit a formal closeout letter to us within 30 days so that we
may close the recommendation. The memorandum should be accompanied by evidence of
completion of agreed-upon corrective actions and of the disposition of any monetary
amounts.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
Executive Summary ............................................................................................................ 1 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................... 4 


           SPP Application Process .......................................................................................... 4 

           SPP Procurement Process ....................................................................................... 6 

           Cost Considerations ................................................................................................ 7 

           Recommendations ................................................................................................. 8 

           Management Comments and OIG Analysis ........................................................... 8 


Appendixes
           Appendix A:          Objectives, Scope, and Methodology ............................................ 10

           Appendix B:          Management Comments to the Draft Report ............................... 13

           Appendix C:          Senators’ Requests to DHS OIG ..................................................... 16 

           Appendix D:          Answers to Senators’ Other Concerns .......................................... 18

           Appendix E:          Application and Procurement Process ........................................... 20

           Appendix F:          Roles, Responsibilities, and Activities ............................................ 21

           Appendix G:          Major Contributors to This Report ................................................ 22 

           Appendix H:          Report Distribution ........................................................................ 23 



Abbreviations
           ATSA                  Aviation and Transportation Security Act
           DHS                   Department of Homeland Security
           OIG                   Office of Inspector General
           PMO                   Program Management Office
           SPP                   Screening Partnership Program
           TSA                   Transportation Security Administration
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   We performed this audit in response to requests from Senator Roy Blunt (Missouri) and
   Senator Bob Corker (Tennessee). The Senators had concerns about the Transportation
   Security Administration’s (TSA) management of the Screening Partnership Program, as
   well as the procurement process at Kansas City International Airport.

   As of January 2013, 16 airports were participating in the Screening Partnership Program.
   Under the program, an airport operator may apply to use a private company to screen
   passengers and baggage rather than use Federal Government screening personnel. TSA
   reviews and approves applications to participate, awards contracts to private screening
   companies, and oversees the private screening workforce. We performed this audit to
   determine whether TSA administered the Screening Partnership Program in accordance
   with Federal regulations.

   Until 2011, TSA had no criteria when considering whether to approve airports’
   applications to participate in the Screening Partnership Program. TSA administered the
   program in accordance with the FAA Modernization and Reform Act of 2012, but could
   improve aspects of its administration. Specifically, TSA’s files for its five most recent
   decisions to approve airports’ applications to participate included documents that had
   not been finalized, as well as documents with inaccurate information. In addition, TSA
   did not document the rationale used to decide on four of the five contracts awarded
   during 2011 and 2012.

   TSA had these issues because it did not develop and implement procedures to ensure
   that application evaluation and procurement decisions were adequately documented.
   The component also did not have quality assurance procedures to ensure that the most
   relevant and accurate information was used to determine eligibility and approve
   participation in the Screening Partnership Program. As a result, TSA risks making
   incorrect decisions on applications and procurements, and thus, may miss opportunities
   to save funds.

   We recommended that TSA expedite developing and implementing procedures to
   ensure that decisions on Screening Partnership Program applications and procurements
   are fully documented according to applicable Department and Federal guidance. We
   also recommended that TSA establish and implement quality assurance procedures to
   ensure that the most relevant and accurate information is used when determining
   eligibility and approving airports’ participation in the Screening Partnership Program.



www.oig.dhs.gov                                1                                    OIG-13-99
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   In 2001, the Aviation and Transportation Security Act (ATSA) (P.L. 107-71) established
   the Screening Partnership Program (SPP). Under SPP, airports can apply to TSA to use
   personnel from private companies to screen passengers and baggage. In 2002, five
   airports began participating in a 2-year pilot program; they elected to transition into the
   permanent program in 2004. In the same year, TSA began accepting applications from
   other airports.

   In 2012, under the FAA Modernization and Reform Act of 2012 (P.L. 112-95), TSA was
   required to—

           Approve an application when determining that doing so would not compromise
           security or detrimentally affect the cost-efficiency or effectiveness of passenger
           and baggage screening at the airport;
           Decide on an application within 120 days of receipt; and
           Provide a written report to the applicant and Congress when rejecting an
           application, identifying why the application was rejected and recommending
           how to improve the application for future approval.

   Once an application is approved, TSA contracts with a qualified company to provide
   screening at the airport. According to ATSA, to enter into a contract, TSA must conclude
   and certify to Congress that the level of screening services and protection will be equal
   to or greater than the level that Federal screeners provide. TSA considers a private
   screening company qualified if the company’s screening personnel meet all ATSA
   requirements for Federal screening personnel. The company must provide at least the
   same level of compensation and benefits to its employees that Federal employees
   receive.

   TSA Federal Security Directors are responsible for overall airport security, provide
   oversight of screening operations, and ensure effective and efficient security operations.
   As of January 2013, TSA provided oversight for screening operations at 450 airports,
   including 16 airports participating in SPP.

   TSA developed a process to evaluate airports’ SPP applications and award contracts,
   which TSA senior management approved after we concluded our audit work. According
   to TSA Office of Security Operations personnel, the application process begins when the
   Program Management Office (PMO) receives the airport application. The TSA
   Integrated Project Team analyzes the application and advises the Office of Security

www.oig.dhs.gov                                 2                                    OIG-13-99
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Operations Assistant Administrator on the effect of its acceptance on TSA’s Federal
   screening.

   The PMO’s estimate of the cost of using private screeners at the airport and an Office of
   Security Operations estimate for using Federal screeners are given to the Integrated
   Project Team to review. TSA management personnel receive and review both estimates
   before they are presented to the TSA Administrator, who uses them to decide whether
   to approve or reject applications. Once approved, the TSA Office of Acquisition begins
   the procurement process. When an application is rejected, the PMO informs the
   applicant and Congress about the reasons for rejection and how the applicant might
   improve the application.

   The procurement process includes solicitation, evaluation, selection, and contract
   award. During solicitation, TSA selects evaluation factors, develops a source selection
   plan, establishes evaluation standards, holds a pre-proposal conference, and visits and
   surveys sites. In evaluating proposals, evaluation teams independently review proposals
   and submit evaluation reports.

   Following evaluation, the TSA Source Selection Authority selects a screening company
   and provides a written selection decision to the contracting officer. Contract award
   documentation is then finalized and approved. Appendix E contains a flowchart of the
   application and procurement processes. Appendix F contains details on related roles,
   responsibilities, and activities.

   According to TSA records, from 2004 through 2008, 21 airports, including the 5 pilot
   program participants, applied to participate in SPP. TSA accepted 19 airports into SPP,
   and 2 airports withdrew their applications before final decisions were made. Of the 19
   airports accepted, 3 later withdrew from SPP when carriers discontinued service before
   the start of the contracts. During 2009 and 2010, five SPP applications were received,
   but none were approved.

   We performed this audit in response to requests from Senator Roy Blunt (Missouri) and
   Senator Bob Corker (Tennessee). The Senators had concerns about TSA’s management
   of SPP, as well as the procurement process at Kansas City International Airport.
   Appendix A contains our objectives, scope, and methodology. Appendix C contains
   copies of the Senators’ letters. Appendix D contains our responses to the Senators’
   questions as presented in their letters and subsequent discussions that are not covered
   in the results section of the report.



www.oig.dhs.gov                                3                                   OIG-13-99
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Audit
   Until 2011, TSA had no criteria when considering whether to approve airports’
   applications to participate in SPP. TSA administered the program in accordance with the
   FAA Modernization and Reform Act of 2012, but could improve aspects of its
   administration. We reviewed TSA’s files associated with its five most recent decisions to
   approve SPP applications and identified documents that had not been finalized, as well
   as documents that contained inaccurate information. In addition, TSA did not document
   the rationale used to decide on four of the five contracts awarded during 2011 and
   2012.

   TSA had these issues because it did not develop and implement procedures to ensure
   adequate documentation of application evaluations and procurement decisions. The
   component also did not have quality assurance procedures to ensure that the most
   relevant and accurate information was used to determine eligibility and approve
   participation in SPP. As a result, TSA risks making incorrect decisions on applications
   and procurements, and thus may miss opportunities to save funds.

           SPP Application Process

           Prior to passage of the FAA Modernization and Reform Act of 2012 (2012 act) in
           February 2012, ATSA was in effect, and it did not include criteria for TSA in
           approving SPP applications; TSA could approve any SPP application submitted.
           Prior to the 2012 act, there were no criteria beyond defining a qualified private
           screening company and how private screeners would be compensated. TSA
           complied with the requirements of the 2012 act in approving the five SPP
           applications submitted after its passage. However, TSA did not ensure that
           documents related to decisions on these five applications were finalized and
           accurate. Because decision makers rely on the information in this
           documentation, it should be as accurate and complete as possible.

           From 2004 through 2008, TSA approved 19 SPP applications. During 2009 and
           2010, five SPP applications were received, but none were approved. In 2011, the
           TSA Administrator decided that the agency would no longer approve SPP
           applications unless airports demonstrated “a clear and substantial benefit” to
           the Federal Government.

           Since the 2012 act was passed, TSA approved five applications, two of which
           were submitted during 2009 and 2010, but indicated that actual program
           participation is conditional on TSA being able to retain private screening
www.oig.dhs.gov                                4                                    OIG-13-99
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


            providers for the airports that meet the act’s requirements of effective and cost-

            efficient screening. As of January 2013, 16 airports were participating in SPP; 5

            additional airports had been accepted into the program, but TSA indicated that it

            had not yet awarded contracts for these 5 airports. 


            We reviewed applications from the following five airports, which TSA approved 

            since the passage of the 2012 act:


                     Orlando Sanford International Airport (Florida)

                     Sacramento International Airport (California)1

                     Glacier Park International Airport (Montana) 

                     Bert Mooney Airport (Montana) 

                     Bozeman Yellowstone International Airport (Montana)


            TSA made the decisions on these applications within 120 days of receiving them, 

            but TSA’s files included inaccurate documents.2 For example, 14 of 25 

            (56 percent) of the documents that TSA used to evaluate these five applications

            were not finalized. We also identified errors in the documents. For example, we 

            noted the following errors in two separate documents:


                     A document included an incorrect figure, which resulted in a $162,057
                     overstatement of the cost to use private screeners.
                     A document used to compare the estimated cost of private screening to
                     the estimated cost of Federal screening showed TSA understated an
                     estimate of the cost savings of private screening by $423,572. If the
                     estimate had been correctly stated, the report would have shown a
                     7 percent increase in maximum potential cost savings from using private
                     screening compared to Federal screening.

            According to TSA, the errors may have resulted from using information from an
            earlier application file and not changing all of the required figures to reflect the
            analysis of the new applications. TSA did not have quality control procedures
            that required a second review of the data in application files to ensure that all
            required documentation was finalized and accurate. Although in these two
            cases TSA correctly approved the applications, there is still a risk that inaccurate
            estimates could lead to incorrect decisions.


    1
    After our audit work was completed, Sacramento International Airport withdrew its SPP application.
    2
    Documentation reviewed included cost estimate briefings, integrated project team briefings, SPP
   application chair briefings, application determination briefings, and decision memorandums.
www.oig.dhs.gov                                          5                                       OIG-13-99
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            SPP Procurement Process


            From January 2011 to August 2012, TSA did not comply fully with Federal
            Acquisition Regulation Section 15.308 when documenting its decisions in
            awarding four SPP contracts. Specifically, in this time period, TSA’s
            documentation on proposal evaluations and decisions related to these contract
            awards was missing details and included inaccuracies. TSA did not formalize and
            implement procedures to ensure that SPP procurements were fully documented,
            and it did not have quality control procedures to verify the accuracy of data used
            for contract decisions. As a result, TSA risks not selecting the best contractor
            offer and not ensuring that it provides the best screening services.

            In four of the five procurement files for contracts awarded between January
            2011 and August 2012, the rationale for TSA’s final decisions on contractor
            selection was not fully described in supporting documentation. The DHS source
            selection guide requires the Source Selection Authority to document its rationale
            separately. The guide further specifies the elements that files should include—a
            decision statement, a brief description of the product or service being procured,
            a brief description of the basis for the award, a list of competitive offerors, the
            rationale for business judgments and tradeoffs, and the reason that the selected
            offeror’s proposal is the best overall value to the Federal Government.3

            Rather than including all of this information, all four files contained a similar
            short paragraph noting the Source Selection Authority’s decision. For example,
            in the file for the contract awarded to the Kansas City International Airport, the
            final decision noted that the Source Selection Authority had completed an
            independent review and assessment of the technical and price reports, but did
            not include other details on the rationale for its decision. According to TSA, the
            files were missing documentation on the rationale for decisions because staff
            members believed that they had met Federal Acquisition Regulation
            requirements for final decision documentation.

            In September 2011, a Federal court ruled that TSA could not award a private
            screening contract to the contractor originally selected for the Kansas City
            International Airport, and it directed the component to cancel or amend the
            solicitation. The Federal court concluded that the TSA Source Selection
            Authority’s decision did not include documentation on its independent analysis.
            According to Federal Acquisition Regulation Section 15.308, the Source Selection


    3
    A Practical Guide to Source Selection, Version 1.1, September 2008.
www.oig.dhs.gov                                          6                            OIG-13-99
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            Authority may use reports and analyses prepared by others, but its decision shall
            represent its independent judgment.

            Following the 2011 ruling, TSA developed lessons learned to ensure full
            documentation of its proposal analysis and the rationale for its decisions, as well
            as the Source Selection Authority’s independence. Although at the time of our
            audit the lessons learned had not been formalized as policy, TSA began requiring
            additional documentation to support final source selection decisions. We
            reviewed documentation for a decision on a contract to provide screening for
            three airports and confirmed that it included details on the rationale for
            procurement decisions and on independent analysis.

            In reviewing the five contracts awarded between January 2011 and August 2012
            for eight airports, we noted data discrepancies in TSA’s proposal evaluation
            documentation.4 In addition, we reviewed two of eight cost estimates that TSA
            prepared for the five procurements and identified discrepancies in both cost
            estimates. Specifically, there were differences in labor hours and overtime rates.
            Inaccurate cost estimates could affect TSA’s evaluation of offerors.

            Cost Considerations

            Under the 2012 act, TSA is required to consider cost efficiency in deciding on
            airports’ admission into SPP. However, we were unable to conclude whether
            TSA was properly considering cost because TSA reported that none of the four
            SPP applications approved and in progress since the act’s passage had
            progressed to the contract evaluation phase where cost would be evaluated.

            A January 13, 2013, memorandum approved by the TSA Administrator directed
            that cost efficiency be evaluated when deciding on an airport’s continued
            participation in SPP. TSA developed and continued to refine a methodology for
            estimating the cost of converting SPP airports back to screening with Federal TSA
            personnel, but had yet to perform the cost determination for any airport in SPP
            at that time.

            The cost estimates consider factors such as labor costs, attrition, real estate
            costs, and overhead, which are partially based on costs of using Federal
            personnel at two comparable airports. As TSA refines the cost estimates, the
            component continues to adjust factors that result in several different cost
            estimates, some of which indicate TSA employee screening would cost more and
    4
    One contract covered three airports; another contract covered two airports.
www.oig.dhs.gov                                       7                               OIG-13-99
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           others in which the contracted screening would cost more. Because different
           factors may be added and removed from the cost estimates, they do not provide
           a consistent basis for making decisions on SPP participation.

           Conclusion

           Without improving aspects of its administration of SPP, TSA increases the risk of
           not selecting the best contractor to provide screening services. TSA’s
           administration of SPP includes in-depth examination of airport applications and
           private contractor offers, which requires detailed calculations and analysis in
           deciding whether to accept or reject applications and proposals. Therefore, TSA
           should ensure that this process provides decision makers with accurate
           information.

           Recommendations

           We recommend that the Transportation Security Administration Deputy
           Administrator:

           Recommendation #1:

           Expedite developing and implementing procedures to ensure that decisions on
           Screening Partnership Program applications and procurements are fully
           documented according to applicable Department and Federal guidance.

           Recommendation #2:

           Establish and implement quality assurance procedures to ensure that the most
           relevant and accurate information is used when determining eligibility and
           approving airports’ participation in the Screening Partnership Program.

           Management Comments and OIG Analysis

           TSA recognized the importance of the issues in this report and appreciated our
           efforts to identify improvements in SPP application review. The component
           noted that our recommendations reflect program enhancements since passage
           of the 2012 act, and that it had already made significant progress toward
           implementing our recommendations.



www.oig.dhs.gov                                8                                    OIG-13-99
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #1: TSA concurred with the recommendation and revised and
           approved its application process on March 4, 2013. In December 2012, the TSA
           Office of Acquisition issued a policy letter, effective January 1, 2013, on Source
           Selection Authority appointment and business processes. The policy letter
           includes a requirement for an independent Source Selection Authority tradeoff
           analysis decision, with a reference to the DHS source selection guide. In January
           2013, TSA issued a policy reminder on source selection procedures, which
           reiterates that the Source Selection Authority must independently document its
           decision. According to the policy reminder, the Contracting Officer also needs to
           review in detail all source selection documents.

           OIG Analysis: We reviewed TSA’s corrective actions and confirmed that they
           satisfy the recommendation. TSA provided sufficient supporting
           documentation. We consider recommendation #1 to be resolved and closed.

           Recommendation #2: TSA concurred with recommendation #2. Early in fiscal
           year 2013, TSA began to improve quality assurance in application documents and
           completed part of the work in March 2013, when it finalized the revised
           application process. In the fall of 2012, the component began printing dates on
           Government cost estimates to track changes and versions over time more
           accurately. TSA expects to finalize a cost estimating process in 2013. The PMO is
           finalizing a review process, which it planned to complete in 2013, to ensure that
           all application documents are final and accurate before being used to reach a
           final determination. For all future procurements, the PMO will formally confirm
           or revise the TSA “cost efficiency number” 1 week prior to releasing the request
           for proposals. TSA expected to document and finalize this standard in 2013.

           OIG Analysis: TSA’s planned corrective actions are responsive to the
           recommendation. This recommendation will remain open and resolved until we
           receive documented support that the cost estimation process, the review
           process for all application documents, and the standard for documenting the
           “cost efficiency number” are finalized.




www.oig.dhs.gov                                9                                    OIG-13-99
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   Senators Roy Blunt and Bob Corker requested this audit because of concerns regarding
   TSA’s management of SPP. We determined whether TSA is administering the program
   in accordance with Federal regulations.

   We interviewed staff in the TSA Office of Acquisition and the SPP Management Office to
   develop an understanding of the processes and procedures involved in administering
   SPP. We reviewed relevant criteria, policies, and other guidance related to SPP
   procurement and application functions. We obtained and reviewed SPP application and
   procurement documentation at TSA headquarters.

   To determine whether TSA complied with applicable laws, regulations, and policies, we
   reviewed applications approved since passage of the FAA Modernization and Reform Act
   of 2012 (P.L. 112-95) in February 2012. The following airports were in this category:
   Orlando-Sanford International, Sacramento International, Glacier Park International,
   Bert Mooney, and Bozeman Yellowstone International. For the application process, we
   reviewed approved, rejected, and withdrawn applications, including the support
   documentation for all applications decided on since February 2012. Documentation
   included the Cost Estimate Briefing, Integrated Project Team Briefing, SPP Application
   Chair Briefing, Application Determination Briefing, and the Decision Memorandum.

   To determine whether TSA complied with applicable procurement laws, regulations, and
   policies, we reviewed both full and open competition and small business set-asides. We
   reviewed the San Francisco International Airport, Jackson Hole Airport, and Kansas City
   International Airport procurements for full and open competitions. We also reviewed
   the Charles M. Schulz-Sonoma County Airport, Joe Foss Field/Sioux Falls Regional
   Airport, Key West International Airport, Greater Rochester International Airport, and
   Tupelo Regional Airport procurements for small business set-asides. The team
   assessed TSA documentation related to price, technical, and past performance
   evaluations; Source Selection Evaluation Board and Source Selection Authority analyses;
   and other supporting documentation deemed necessary.

www.oig.dhs.gov                               10                                   OIG-13-99
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Using data provided by TSA, we identified all airports that applied for SPP, including the
   number of times each airport applied and the outcome of those applications. We
   identified timelines for TSA decisions. For the procurement process, we examined
   contract file documentation, and we reviewed documents pertaining to TSA analyses of
   private screening proposals under full and open competition and small business set-
   asides. This documentation included the following:

           Consensus technical evaluations (evaluate technical strengths and weaknesses of
           proposals);

           Price costs (determine and ensure fair and reasonable pricing);

           Past performances (review and rate contractors’ prior service performance);

           Source Selection Evaluation Board tradeoff analyses and recommendations
           (explain, rank proposals, and make recommendations based on technical, price,
           and past performance evaluations); and

           Source Selection Authority independent analyses and decisions and business
           clearance memorandum reports (document contracting officers’ actions,
           analyses, and decisions on procurement actions).

   To verify and validate the figures and data calculated on the cost estimates prepared by
   the TSA SPP Program Office, we reviewed cost estimates for two airports. We verified
   the mathematical calculations and obtained some of the cost estimate source data to
   verify the figures used. Specifically, we obtained TSA’s Staffing Allocation Model
   spreadsheet to verify estimated staffing information on the cost estimates. We also
   obtained one airport’s contractor invoices for September 2009 and invoices from
   December 2009 to February 2010; we compared these invoices with the prepared cost
   estimate to determine whether burdened rates, such as overhead, general and
   administrative, overtime, and fringe rates, matched; and we noted any discrepancies.
   With a limited sample of invoices, we could not make a general conclusion on fringe rate
   differences. We were also unable to determine the base wage rates used for the cost
   estimate based on invoices obtained.

   Because of time constraints, we did not obtain contractor invoices for the second
   airport we tested. We also did not obtain source data for other cost estimate elements,
   so we were unable to verify some figures. We did not review source data on TSA
   assumptions for part- and full-time staff; breakdown of screener, lead screener, and
   supervisory screener labor categories; non-screener wage rates; and historical profit and
www.oig.dhs.gov                                11                                    OIG-13-99
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   other direct costs. We did not make any judgments on TSA’s assumptions and source
   data used in preparing the cost estimates for the purposes of this audit.

   To verify ATSA wage rates in the cost estimates and the solicitation issued for three
   airports in April 2010, we obtained TSA's 2010 pay band chart and the 2010 Office of
   Personnel Management locality pay chart to independently calculate ATSA wage rates.

   To determine which factors contributed to or influenced airports’ decisions not to
   participate in SPP, we selected for interviews 25 airports that have never participated in
   the non-federalized screening model. We interviewed 23 airport officials—one official
   discontinued the interview and another did not respond to our interview request. To
   identify the number of airports that have never applied for non-federalized screening
   model, we separated airports whose SPP applications were accepted, pending,
   withdrawn, or rejected from TSA’s list of 446 airports. Given our new universe of 420
   airports, we judgmentally selected 25 airports, with five airports taken from each of
   TSA’s five designated airport categories.5

   We conducted this performance audit between July 2012 and January 2013 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




   5
    TSA classifies the Nation’s airports into one of five categories (X, I, II, III, and IV) based on various factors such as the
   number of annual takeoffs and landings. In general, Category X airports have the largest number of passengers
   boarding aircraft and Category IV airports have the smallest number.
www.oig.dhs.gov                                                 12                                                   OIG-13-99
                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                         U.S, Ocpartmt;Jtt nf llamelan.4   S~urity
                                                                                         SOl Souili 12th Stre&t
                                                                                         Arlin.b>ton, VA   20~98



                                                                           .-·•"·"~>~    Transportation
                                                                         i          ~)   Security
                                                                          • ... ~'t:~/
                                                                          \:,,~          Administration
                                                      NFOR!I.1ATION          - ...


              MEMORANDUM FOR:                        Anne L. Richards
                                                     Assistant Inspector General tor Audits
                                                     U.S. Department of Homeland Security (DHS)

              FROM:                                  J.W. Halinskiail
                                                     Deputy Admirkator

              SUBJECT:                               Respnnsc to Draft Report, Tramportation Security
                                                     Administrmiorz's Screening Partnership Program, OIG
                                                     Project No. 12-152-AUD-TSA




              This memorandum constitutes the Transportation Security Administration's (TSA) response to
              the DHS Office oflnspc<::tor General (OIG) draft report, Transportation Security
              Administration's Screening Partnership Progmm, OIG Project No. 12-152-AUD-TSA, April
              2013.

              Background

              'The OIG conducted this audit at the request of Senator Roy Blunt and Senator Bob Corker. The
              audit objective was to determine whether TSA is administering the program in accordance witl1
              Federal regulations. The OIG audit team conducted this performance audit trom July 2012
              through January 2013.

              The OIG found that TSA administered the Screening Partnership Program (SPP) in accordance
              with the Federal Aviation Administration (FAA) Modernization and Reform Act of 2012 (FAA
              Act). They also stated that TSA could improve some aspects of its processes. The OIG made
              two recommendations to improve TSA's administration nfthe program.

              Discussion

              Privatized screening is important to T SA · s mission. Private contractors at SPP airports screen
              more than 28 million people and 1heirbagg~ge annually, and TSA is grateful for the OIG's
              eftorts to examine and help improve the program. TSA appreciates the OIG's confirmation that
              the SPP is administered in accordance with the FAA Act, and thar TSA acted in accordance with
              its regulations and procedures. The OIG also reports that the SPP did not exceed its statutory
              authority or act improperly, unethically, or unlawfully. TSA i s further pleased that OIG fotmd
              no conflict of interest associated with the 2011 SPP contract award at the Kansas City
              International Airport.




www.oig.dhs.gov                                                13                                                                    OIG-13-99
                                                               OFFICE OF INSPECTOR GENERAL
                                                                       Department of Homeland Security



                                                                                                                            2

                           TSA believes the SPP is a robust, effective, and well-run program, and the OIG's
                           recommendations will help improve it The OIG's recommendations mirror the program's own
                           enhancements in progress since the FAA Act became law. TSA cnhMcements include a revision
                           of the original application process. The revision was completed in March 2013. Additionally,
                           based on feedback from the audit team prior to the report's publication, the program began
                           revising its internal procedures to include using multiple layers of review of application
                           documents, such as cost estimates., to ensure they are accurate and complete pnor to a tormal
                           decision by TSA leadership.

                           The OIG reviewed all documentation concerning the applications received and approved since
                           February 2012 and all SPP procurements dating back to 20l0. The OIG report states, "As a
                           result [of not having quality assurance procedures), TSA risks making incorrect decisions on
                           applications and procurements, and tim..-; may miss opportunities to !\BVC funds." The oro
                           concluded this after identifying documents that did not appear to be "finalized" due to an
                           oversight that inadvertently led to the documents retaining "draft" and "pre-decisional''
                           markings. However, the doct1ments were final and the data were a;;curate. These markings did
                           not increase the likelihood of poor decision-making by the Agency. It is worth noting tlmt while
                           the O!G idcnti.ficd two "inaccurate cost figures in the application documents," both inaccuracies
                           were for the same application, which was the first application adjudicated following the passage
                           ofthe FAA Act. The calculations were correct but unfortunately mislabeled on the two
                           supporting documents in question . Most importantly, the cost figures in those documents when
                           forwarded to TSA senior leadership were properly labeled and the nssociatcd decisions were not
                           based on these calculations alone . Although the mislabeling is regrettable, these errors did not
                           lead TSA to miss "opporttmities to save funds."

                           Regarding SPP procurements, OJG concluded, "From Junuary 2011 to August 2012, TSA did not
                           fully comply with [Federal Acquisition Regulations (FAR)] part 15. 30S." While TSA maintains
                           that all the procurements in question were compliant with the FAR requirements, TSA also
                           acknowledges that documentation could have been more thorough. Additionally, the report
                           states,"... the rationale for TSA's final decisions on contractor selection was not fully described
                           in supporting documentation. The DHS source selection guide requires the Source Selection
                           Authority lo drK:nment its rationale sepamtdy." TSA complied with procurement regulations, bu1
                           may not have fully implemented a best practice as recommended by the guide. All SPP
                           procurements now include a separately documented rationale by the selection authority.

                           Conclusion

                          TSA recognizes the important issues set forth in this report and appreciates OIG's efforts to
                          identify areas to improve the SPP application review process. SignificMt progress has already
                          been made tnward implementing the OIG recommendations. TSA values the OJG's
                          acknowledgement that TSA is administering the SPP program in accordance with Federal
                          regulations and welcomes the opportunity to improve this program.

                           Attachment




     · ··--·········---··········--···········--······-·········--········-······--········-···········-·····-······----




www.oig.dhs.gov                                                                                         14                       OIG-13-99
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                                            U.S. Department of Homeland Security
                                         Transportatitm Security Administration (TSA)

                                                 Response to OIG Draft Report
                             Transportation Security A dmfnistration's Screening Partnership Program
                                                OIG Project No. 12·152·AUD·TSA

                  Recommendation 1: Expedite developing and implementing procedures to ensure that
                  decisions on Screening Partnership Program (SPP) applications and procurements are fully
                  documented according to applicable Department and Federal guidance.

                  TSA coneurs. To implement this recommendation, TSA revised and approved its application
                  process on March 4, 2013. Federal Acquisition Regulations (FAR) Subpart 15.308 delineates
                  requirements for source selection authority's (SSA) decisions. Additionally, the U.S.
                  Department of Homeland Security (DHS) Source Selection Guide expa.11ds upon this requirement
                  and provides further guidance on specific information to be included in an SSA decision. In
                  December 2012, the TSA Offu;e of Acquisition (OA) issued a Policy Letter, (effective January 1,
                  2013), regarding SSA Appointment and Business Processes. One portion of this Policy Letter
                  denotes the requirement for an independent SSA trade-off analysis decision, with a refe-rence to
                  the DHS Source Selection Guide. In addition to this Policy Letter, in January 2013, OA issued a
                  Policy Reminder on Source Selection Procedures. Among other things, this policy reminder
                  reiterates the requirements for the SSA to independently document their decision, as well as the
                  need for the Contracting Off1cer to provide a detailed review of all source selection documents.

                  Recommendation 2: Establish and implement quality assurance procedures to ensure that the
                  most relevant and accurate information is used when detennining eligibility and approving
                  airport~' participation in the Screening Partnership Program.


                  TSA concurs. TSA began work on improving quality assurance in application documents early
                  in fiscal year20!3. Part of this work was completed in March 2013, when the revised
                  application process was finalized. The document capturing this process outlines the artifacts,
                  locations, and naming conventions of all application documents. Additionally, TSA is in the
                  process of establishing the following:

                         •   To ensure the quality of cost estimates, the SPP Program Management Office (PMO)
                             began printing dates on Government costs estimates in the tall of 20 12 in order to
                             better track changes and versions over time.

                         •   TSA expects to fmalize a cost estimating process by June 30, 2013. The process will
                             describe in detail how cost estimates are created and how they will be reviewed.

                         •   The SPP PMO is finalizing a review prncess for all application documents to ensw·e
                             they are final and accurate before being used to reach a final determination. This
                             should be completed by May 31,2013.

                         •   For all future procurements, the SPP PMO will formally confirm or revise the TSA
                             "cost efficiency" number used in any procurement one week prior to releasing ihe
                             request for proposals. This standard is being documented and should be finalized by
                             May 31 , 2013.




www.oig.dhs.gov                                                15                                                    OIG-13-99
                                             OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security


   Appendix C
   Senators’ Requests to DHS OIG
                ROY BLUNT
                   ... :;souR~

                                                                                                                   COM!.' tRCt: SOE-.c!
        )GO Ru!au SI.HAT1 (),.;a 8tAI'MQ                                                                          AA1l TRA.~I..TION
           WAUCJ~~~G•o-t. DC m10..:so8
                 m ..2'14 t.n,                       Umtrd eStates ,SrnJtr                                     HUlfS A.'ID AOM flitSTRA TI()N
                                                             WAS~1IN~,...ON    20510                               stu:cr COMMJm t
                                                                                                                    ON INTUI.ICU NCf
                                                                Mareh 5, 2012

                  Charles K. Edwards
                  Acting Inspector General
                  Department of llomeland Security
                  245 Murray Drive, SW, Building 410
                  Washington, DC 20528


                  Dear Mr. t:.dwards

                  I write to requ~t an investigation to determine whether the Transportation Security Administration (TSA)
                  has acted outside itS own regulations and procedures, taken any actions that exceed its statutory authority,
                  or has otherwise acted improperly, unethically. or unlawfully in its administration of the Screening
                  Pannership Program (SPI').

                  Despite the demonstrated success ofSPP airports, TSA has never fully embraced the SPP. The TSA has
                  recently taken a series of actions and made a number of decisions which have been detrimental to the SPP
                  and seemingly arc outside the statutory d iscretion of the TSA. These factors, coupled with a general lack of
                  transparency, raise trOubling questions that need to be answered.

                  To that end, I am requesting that your investigation include possible improper pressure exerted by the
                  TSA on airport officials to not "opt-out"' ofTSA security screening, TSA's arbitrary rejection of airport
                  "opt-out" requests and onerous requirements on airports that wish to participate in the SPP.

                  I also request that you investigate questionable actions regarding the TSA ·s procurement procedures
                  relating to the SPP. This has come to my anention as result of the TSA ·s voided SPP contract award at
                  Kansas City lntcmotional Airpon (MCI). In the federal judge·s ruling in which she voided the contract,
                  she described the TSA 's actions as "arbitrary, capricious, an abuse of discretion, or otherwise not in
                  accordance with law."' Of panicular interest in this case i the TSA Source Selection Evaluation Board's
                  and Source Selection Authority"s apparent unwillingness to perform a proper "best-value tradeoff
                  analysis."' A recent House ~lomeland Security Transportation Security Subcommittee hearing highlighted
                  this issue and others that are of conccm within this contracting process.

                  It is my hope that this inve.tigation will provide some much needed transparency and oversight into the
                  TSA 's past, present, and furure decision-making. I appreciate your attention to these important matters,
                  and look forward to fun her discussions, your subsequent review, and final response with regard to them.




www.oig.dhs.gov                                                               16                                                                OIG-13-99
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


           BOB CO RKER                                                                                  185 ::>ofo..,ol"l'ol 31-11 OrrKC DlJI 1..>1'>10
                                                                                                                WACUI' NT( N, UC :t0b1U
                                                                                                                     CA1)7>4-:\~
                                                                                                                  r--.ac   12021 21'8 0666



                                                  United States ~cnatc                                           R"'"""''"'     H.H~..,."'
                                                                                                                MD UR8A..., AFF.fJR:i
                                                                                                                roi'UION nt: -ATJ{)I',IS
                                                            May24,2012
                                                                                                         5P!:C Al COMMit H ( ON A.CINC
                  Charles K. Edwards
                  Acting Inspector General
                  Dcpanmcnt ofHomclnnd Security
                  245 Murray Drive, SW, Building 410
                  Washington, DC 20528

                  Dear Mr. Edwards.

                  I am writing to formally join in Senator Olunt's request for an investigation by your otlice "to
                  determine whether the Transportation Security Administration (TSA) has acted outside it~ own
                  regulations and procedures, taken any actions that exceed its statutory authority, or has otherwise
                  acted improperly, unethically, or unlawfully in i ts administration of the Screening Partnership
                  Program (SP P).''

                  I am concerned that TSA has failed to tnke full advantage of its pa~tnership with the private
                  sector as Congress intended to adopt and advance innovations in security a11d lllallagement best
                  pntc tices. Rather, some ofTSA's actions have given the appearance that it seeks to downplay
                  the e ffectiveness of its private screening partners in making contributions toward improving
                  security, reducing costs, a11d cultivating positive relationships with our country's airport~ and
                  passengers. TSA seemingly continues to rely on its flawed internal studies to support
                  fundamenral management deLOisions, resisting ful l implementation of the Government
                  Accountability Office's (GAO) recommendations for an accurate comparison of performance
                  and cost between SPP and non-SPP nirport5.

                  Additionally, I have significant concerns with TSA's procurement pruo.;euures relating to the SPP
                  following a recent federal court ruling that voided TSA 's SPP contract award at Kansas City
                  International Airport (MCij, fmding that the TSA's actions were "arhitmry , capricious, all abuse
                  of discretion, or otherwise not in accordance with law." Of particular interest in this case is the
                  TSA Source Selt:ction Evaluation Board's and Source Selection Authority' s failure to perlorm a
                  proper "bt:st-value tradeoff a11alysis.''

                  I expect that your investigation will provide needed transparency and oversight ofTSA's past
                  procurement practices as well as pmdut:e important recommendations for future decision-
                  making. My hope is thnt this investigation will be conduct<:d thoroughly and swiftly, and that the
                  TSA will soon be in an improved position to award SPP ,;onlrat:ts that are in accordance with
                  law. I appreciate your consideration of this request.

                                                               Sincerely,




www.oig.dhs.gov                                                  17                                                                      OIG-13-99
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Answers to Senators’ Other Concerns
   Question 1:
   Did TSA act outside its own regulations and procedures or take any actions that exceed
   its statutory authority, or did it otherwise act improperly, unethically, or unlawfully in its
   administration of the SPP?
   Answer 1:
   No. In reviewing the SPP application and procurement documents and processes and
   interviewing appropriate personnel, we found no evidence that TSA acted outside its
   regulations and procedures; exceeded its statutory authority; or acted improperly,
   unethically, or unlawfully.
   Question 2:
   Identify whether TSA is not embracing the Screening Partnership Program by putting
   pressure on airport officials to not participate in the program.
   Answer 2:
   TSA met the intent of ATSA. The component implemented SPP and made it available to
   interested airports. TSA has not pressured airport officials to not participate in the SPP.
   We conducted telephone interviews with officials from 24 non-SPP airports, none of
   whom said they were pressured by TSA regarding the program. Specifically, officials at
   20 airports said that they were satisfied with TSA screening at their airports, two had no
   comment or were undecided, one airport was not interested in the SPP, and one airport
   planned to apply to the program.

   We reviewed documentation for the six airports whose applications to participate in SPP
   were rejected, including the four that subsequently resubmitted applications. The four
   airports that reapplied were subsequently accepted. Officials from the two airports that
   did not reapply said that TSA did not place undue pressure on them for this decision.
   Question 3:
   Did TSA take full advantage of SPP to advance innovations and best practices in security
   and management, as well as cultivate positive relationships between screeners and
   passengers at airports?
   Answer 3:
   Based on information provided by TSA, the component maintains a web-based tool
   called the IdeaFactory to collect information and suggestions from the workforce. SPP
   contractors can submit suggestions at the TSA website. The website terms leave it
   relatively unclear whether contractor suggestions through the website are desired. To
   better answer this question, we would need to have lengthy discussions with SPP
   participant airports and TSA officials to develop a more detailed understanding of the

www.oig.dhs.gov                                 18                                      OIG-13-99
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   process; and to draw a more complete conclusion, we would need to review innovations
   previously submitted and rejected. Time constraints did not allow the audit team to
   hold such discussions or review previously submitted innovations.
   Question 4:
   Determine if TSA resisted implementing Government Accountability Office
   recommendations to accurately assess the costs of screening at SPP and non-SPP
   airports.
   Answer 4:
   We reviewed the preliminary work and plans for doing so, but could not answer this
   question until TSA finalizes the process. The component continues to update its SPP
   Cost Estimate used to compare actual costs for SPP contracts against the costs of
   federalized screening.
   Question 5:
   Determine TSA’s rationale to starting the Kansas City International Airport procurement
   process over.
   Answer 5:
   TSA decided to re-procure the solicitation because of the errors in the original Request
   for Proposals, which led to a Federal court ruling, as well as the length of time since the
   original proposal was issued by the component.

   According to the ruling, TSA could either amend the solicitation to correct the price
   evaluation scheme, notify the sole offerors about the amendment to the solicitation,
   and engage them in discussions; or re-procure the solicitation.
   Question 6:
   Identify any conflict of interest at Kansas City International Airport with a former TSA
   employee.
   Answer 6:
   We did not identify any conflict of interest.

   We examined TSA procurement files located at TSA headquarters, Office of Acquisitions.
   The files did not provide any evidence that the former TSA employee had any influence
   over the procurement.




www.oig.dhs.gov                                19                                    OIG-13-99
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix E
   Application and Procurement Processes




   Source: DHS OIG-generated based on TSA source documents.




www.oig.dhs.gov                                   20                OIG-13-99
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Appendix F
   Roles, Responsibilities, and Activities

   The Program Management Office (PMO) receives the airport application, confirms that it is complete,
   and advises the TSA Integrated Project Team of the application.

   The Integrated Project Team gathers data concerning the applicant airport, including estimates of the
   cost of converting the airport to private screening and of continuing to use Federal screeners, and briefs
   the SPP Application Committee Chair.

   The SPP Application Committee Chair briefs the TSA Senior Leadership Team on the application, including
   recommending whether to approve or reject the application.

   The TSA Administrator decides whether to approve the application, and the PMO advises the applicant of
   the Administrator’s decision. If the application is not approved, the PMO provides the applicant with a
   report that includes the reasons for rejection and recommendations for future application. TSA
   Legislative Affairs forwards copies of the report to appropriate congressional committees.

   The proposal selection process involves acquisition planning, pre-solicitation activities, issuing the
   solicitation, initial proposal evaluation, selecting a source, and awarding the contract. Acquisition
   planning entails conducting market research, determining the need for pre-solicitation or pre-proposal
   conferences, preparing an acquisition plan, and conducting an acquisition integrity briefing for team
   members.

   Pre-solicitation activities involve selecting evaluation factors, subfactors, and criteria; preparing a source
   selection plan; establishing evaluation standards; and preparing a solicitation. Soliciting industry consists
   of issuing the solicitation, holding a pre-proposal conference, and visiting sites or conducting surveys (if
   needed). Initial proposal evaluation entails receiving proposals, the evaluation team independently
   reviewing proposals, holding consensus meetings, and preparing and submitting initial evaluation
   reports.

   Source selection involves the Source Selection Authority deciding on a source and providing a written
   selection decision to the contracting officer. Contract award consists of finalizing and approving award
   documentation.


   Source: DHS OIG-generated based on TSA source documents.




www.oig.dhs.gov                                          21                                            OIG-13-99
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix G
   Major Contributors to This Report

   Patrick O’Malley, Director
   Brad Mosher, Audit Manager
   Shawn Cosman, Auditor
   Ebenezer Jackson, Program Analyst
   John Jadick, Program Analyst
   Kristine Odina, Program Analyst
   Kelly Herberger, Communications Analyst
   Christine Haynes, Independent Referencer




www.oig.dhs.gov                               22                OIG-13-99
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix H
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Transportation Security Administration

   Administrator
   Deputy Administrator
   Transportation Security Administration Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                 23                         OIG-13-99
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
